SHORT- AND LONG-TERM EFFORTS TO
   MITIGATE FLIGHT DELAYS AND
          CONGESTION

          Office of the Secretary
      Federal Aviation Administration
     Bureau of Transportation Statistics

       Report Number: CR-2004-066
        Date Issued: June 17, 2004
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Short- and Long-term Efforts to                     Date:    June 17, 2004
           Mitigate Flight Delays and Congestion
           CR-2004-066

  From:    Alexis M. Stefani                                        Reply to
                                                                    Attn. of:   JA-50
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Aviation Administrator
           Assistant Secretary for Aviation and
            International Affairs
           Bureau of Transportation Statistics Director

           On May 18, 2004, at a hearing of the U.S. Senate Committee on Commerce,
           Science, and Transportation, Subcommittee on Aviation, we provided testimony
           on the Department of Transportation’s and the Federal Aviation Administration’s
           (FAA) short- and long-term efforts to mitigate flight delays and congestion. Our
           testimony focused on four areas: current air traffic and delay conditions, the
           changing drivers of congestion (including new security-related airport congestion),
           FAA’s actions in the past 4 years to prevent and mitigate congestion, and the
           short- and long-term implications of these actions in the future. A copy of our
           complete statement is attached as Exhibit A.

           We identified two actions that the Department and FAA should undertake to help
           prepare for anticipated congestion and delays this summer and beyond. We made
           the following recommendations:

                • First, FAA should complete and publish its revised capacity benchmarks as
                  soon as possible. These benchmarks were first developed in the aftermath
                  of the summer of 2000 and set forth the number of flights a specific airport
                  could support within the constraints of the airport’s runways and the air
                  traffic control system under varying weather conditions. As such, they
                  were useful for disclosing capacity levels at specific airports in relation to
                  proposed airline scheduling as well as for projecting additional capacity
                  that could be gained through new runways, technology, and procedures.
                                                                               2

   • Second, the Department of Transportation, in collaboration with the
     Department of Homeland Security, should collect and report, on a monthly
     basis, airport-specific data disclosing wait-times at airport passenger
     security screening checkpoints, just as the airlines are required to report
     their on-time performance to the Department of Transportation. Such
     information, in conjunction with currently collected causation data, will
     provide a more complete picture of delays in the aviation system and
     identify where action is needed.

The Department and FAA concur with our recommendations and have stated their
intent to respond in a timely manner. Secretary Mineta has already directed the
Department’s Office of Aviation and International Affairs and the Bureau of
Transportation Statistics (BTS) to develop a statistically valid means to measure
and report on security wait-times at the nation’s most congested airports. In a
discussion with FAA following the May 18, 2004 testimony, we were advised that
FAA intends to publish revised capacity benchmarks this June.

In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving a written response within 30 calendar days advising us of
your proposed methodology and the intended target date for action on the
recommendation to measure and report on security wait-times at the nation’s most
congested airports.

The scope and methodology used to conduct our work in support of the statement
are detailed in Exhibit B. We appreciate the courtesies and cooperation extended
by your staff as we conducted our work. If I can be of further assistance, please
call me at (202) 366-1992 or Mark Dayton, Assistant Inspector General for
Competition and Economic Analysis, at (202) 366-9970.


Attachments (2)

                                       #
EXHIBIT A. STATEMENT FOR THE RECORD

Before the Committee on Commerce,
Science, and Transportation
Subcommittee on Aviation
United States Senate
__________________________________________________________________

For Release on Delivery
Expected at
9:30 am EDT
                          Short and Long-term
Tuesday
May 18, 2004
CC-2004-045
                          Efforts to Mitigate
                          Flight Delays and
                          Congestion


                           Statement of
                           The Honorable Kenneth M. Mead
                           Inspector General
                           U.S. Department of Transportation




_________________________________________________________________
Mr. Chairman,

Thank you for inviting us to testify today. As the Subcommittee will recall, our
office was heavily engaged during the summer of 2000 when congestion and
delays created gridlock conditions in some parts of the aviation system. We were
also directed, by statute, to review airline customer service issues that grew out of
the delay problems. Since then, we have regularly reported on air traffic control
modernization and industry operations and finances. Our next report updating the
performance of the aviation system will be issued in June. Our testimony today is
based on this body of work.

Given the difficult financial circumstances within parts of the airline industry, it
seems counterintuitive that we would be here today talking once more about some
of the same congestion and delay problems that existed 4 years ago as a result of
the economic robustness of the industry. Although we are unlikely to see the
same levels of disruption that we saw during 2000, when nearly 1 in 4 flights were
delayed or cancelled, the potential for congestion and delays this summer in some
key airports is very real and the highest it has been since that terrible summer in
2000.

Today we would like to address four areas: current traffic and delay conditions,
the changing drivers of congestion – including new security-related airport
congestion, FAA’s actions in the past 4 years, and what these all mean as we move
forward this summer and beyond. This summer, our focus will necessarily be on
finding quick fixes when problems surface. That will help us through the short
term, but at the same time, we cannot afford to postpone the quest for long-term
solutions to address the underlying root problems. We note that for the longer
term, the Department and Federal Aviation Administration (FAA) have
established a Joint Planning and Development Office to develop a longer term
vision for the next generation air transportation system.

In addition to the Department’s efforts to move forward this summer, we are
making two recommendations today.

   • First, FAA should complete and publish its revised capacity benchmarks as
     soon as possible, preferably before the end of May. These benchmarks
     were first developed in the aftermath of the summer of 2000 and set forth
     the number of flights a specific airport could support within the constraints
     of the airport’s runways and the air traffic control system under varying
     weather conditions. As such, they were useful for disclosing capacity
     levels at specific airports in relation to proposed airline scheduling as well
     as for projecting additional capacity that could be gained through new
     runways, technology, and procedures.

Exhibit A. Statement for the Record
       • Second, the Department of Transportation, in collaboration with the
         Department of Homeland Security, should collect and report, on a monthly
         basis, airport-specific data disclosing wait-times at airport passenger
         security screening checkpoints, just as the airlines are required to report
         their on-time performance to the Department of Transportation. Secretary
         Mineta has directed DOT’s Office of Aviation and International Affairs and
         the Bureau of Transportation Statistics to develop a statistically valid means
         to measure and report on security wait-times at the nation’s most congested
         airports. Such information, in conjunction with currently collected
         causation data, will form a complete picture of delays in the aviation
         system and pinpoint where action is needed.
Current Conditions: Traffic is Rebounding and Existing Delays Are
Likely to Worsen This Summer
Even though we are not yet into the summer months – typically the busiest for the
airlines – we are already seeing delays and congestion resulting from the rebound
in airline traffic. As Figure 1 illustrates, traffic levels in the past few months have
come very close to or exceeded levels for comparable months in 2000.
                             Figure 1: Actual Flight Operations
                             Percent Change in Air Route Traffic Control Center Operations
                             from same month 2000 (FAA Data)                             Mar '04
                                                                                                                                                        1%
                                      5%


                                      0%
                        Percentage




                                     -5%


                                     -10%
                                                                                             Sep '01
                                     -15%                                                     -16%


                                     -20%
                                                              Jul-01




                                                                                                  Jul-02




                                                                                                                                      Jul-03
                                            Jan-01

                                                     Apr-01




                                                                                Jan-02

                                                                                         Apr-02




                                                                                                                    Jan-03

                                                                                                                             Apr-03




                                                                                                                                                         Jan-04
                                                                       Oct-01




                                                                                                           Oct-02




                                                                                                                                               Oct-03




As traffic has grown, so have delays. Although average arrival delays1 in the first
quarter of 2004 of 21.3 percent were below those experienced in the first quarter
of 2000 (23.7 percent), they are up 24 percent from the same period in 2003.




1
    At the 55 Airports tracked by the FAA in the Aviation System Performance Metrics (ASPM) database.


Exhibit A: Stat ement for the Record                                                                                                                              2
              Figure 2: Arrival Delays
              (FAA Data - Nine major airlines, 32 major airports)

                                  120000
                                                       Mar '04 v '00
                                                          -32%
                                  100000


               Number of Delays
                                   80000


                                   60000


                                   40000

                                   20000


                                       0




                                                                                        Aug




                                                                                                                 Dec
                                                                                 Jul
                                           Jan

                                                 Feb




                                                                           Jun




                                                                                              Sep



                                                                                                           Nov
                                                                                                    Oct
                                                        Mar

                                                               Apr

                                                        2000         May         2003                     2004


This recent delay growth is particularly pronounced at some key airports. At
Chicago-O’Hare, 37 percent of flights were delayed in the first quarter of 2004
compared to a delay rate of 21 percent in the first quarter of 2003. The average
length of delay in the first quarter of 2004 at O’Hare totaled 64 minutes versus an
average delay of 54 minutes in the first quarter of 2003. In the first quarter of
2000, 27 percent of flights at O’Hare were delayed for an average of 50 minutes.

One situation that bears watching, in particular, is the impact of the expected
service growth at Washington’s Dulles airport. In June, when Independence Air is
launched by former regional carrier Atlantic Coast Airlines as a new low-cost
carrier, traffic at Dulles will increase significantly. With Independence Air’s
announced intent to add as many as 300 additional daily flights by the end of the
summer, and United’s intent to bring new regional partners to Dulles to replace the
flights once operated by Atlantic Coast, the level of operations will increase
significantly. Security lines are likely to be an issue in addition to airside
congestion.

Other airports to watch include Philadelphia, Atlanta, New York-LaGuardia, and
Cincinnati. All have operations levels that exceed those of the summer of 2000,
experienced delay rates greater than 20 percent last summer, and are increasing
their schedules this summer by more than 6 percent. Figure 3 identifies other
airports that experienced delays last summer that are expecting increased
operations in the summer of 2004.




Exhibit A: Stat ement for the Record                                                                                   3
           Figure 3: Airports With Delays Last Summer That are Increasing
           Schedules for Summer 2004*
                                         Percent Flights                   Average               Percent Increase in
                                         Delayed Summer                     Delay               Flights Summer 2004
          Airport                        2003                             (Minutes)               vs. Summer 2003
    1     Newark                               27.00                        59.19                         7%
    2     Philadelphia                         25.40                        51.27                         9%
    3     NY-Kennedy                           25.13                        56.36                        20%
    4     West Palm Beach                      24.47                        46.49                        12%
    5     Atlanta                              24.24                        48.78                         9%
    6     Raleigh-Durham                       23.45                        48.29                        13%
    7     Fort Lauderdale                      22.95                        49.12                        10%
    8     Washington-Dulles                    22.53                        51.59                        17%
    9     Orlando                              21.76                        49.28                         9%
   10     NY-LaGuardia                         21.66                        59.66                         8%
   11     Baltimore                            21.65                        53.45                         5%
   12     San Antonio                          21.28                        45.55                         6%
   13     Chicago-O’Hare                       21.18                        64.26                         9%
   14     Boston                               20.97                        49.74                         9%
   15     Cincinnati                           19.57                        48.41                         6%
*Airports in boldface all have scheduled operations for the summer of 2004 that exceed schedules
filed in the summer of 2000.


As Operations Increase, Focus Must be Kept on Safety

As air traffic operations increases, it is important not to lose sight of safety. There
are two key areas to watch—runway incursions (potential collisions on the
ground) and operational errors (when air traffic controllers allow planes to come
too close together in the air). Operational errors pose a significant safety risk, with
an average of three operational errors per day and one serious error (those rated as
high risk) every 7 days in Fiscal Year (FY) 2003. We have seen some progress on
runway incursions during the first 7 months of FY 2004; however, the most
serious runway incursions have continued to increase. In addition, although
operational errors decreased marginally, they are still much too high.

                                 Runway Incursions and Operational Errors
                                           For the 7 month Period
                                   October 1, 2003 through April 30, 2004*
                                    Total Incidents                    Most Serious Incidents
                                FY      FY        Percent       FY       FY            Percent
                               2003    2004       Change       2003     2004           Change
Runway                         185      182          (2)         13      19              46
Incursions
Operational Errors             601             589              (2)              32          22                   (31)
*FY 2004 information is preliminary as all incidents may not have received a final severity rating. Serious incidents for runway
incursions include category A and B incidents. Serious incidents for operational errors include high severity incidents.




Exhibit A: Stat ement for the Record                                                                                               4
Changing Drivers of Congestion: Regional Jets, Low-Cost Carrier
Expansion, and New Security Screening Procedures.

In addition to the traditional causes of delays, including weather and over-
scheduling, there are new forces in place this summer that did not exist or were
less prominent four summers ago. These forces, including significantly increased
reliance on regional jets, new and expanded service by low-cost carriers, and post-
9/11 security screening requirements, are presenting new challenges for our
airports and airways.

   •   Regional Jet Growth Places Heavy Demands On Airports and Air Traffic
       Control.

       In recent years, the network carriers have begun to rely more heavily on
       their regional partners to serve smaller markets with their fleets of smaller
       regional jets. In May 2000, scheduled flights aboard regional jets accounted
       for only 9 percent of all flights. In May 2004, scheduled flights aboard
       regional jets will account for 29 percent of all offered flights. Since
       May 2000, scheduled regional jet departures have increased by 180 percent.

                          Figure 4: Type of Aircraft
                          Percent Change in Number of Domestic Scheduled Flights by Type
                          of Aircraft 5/04 vs. 5/00 (FAA Data)

                                   300%

                                   250%

                                   200%                                         180%

                                   150%
                      Percentage




                                   100%

                                    50%

                                     0%

                                   -50%                  -19%       -14%
                                             -49%
                                   -100%
                                           Turboprop   Large Jets   Piston   Regional Jets




       Data from all 31 large hub airports that are tracked by the FAA indicate
       that the growth is more pronounced on an airport-by-airport basis. In 12 of
       the 31 airports, including some of those that experienced serious delays in
       2000, the number of scheduled flights in May 2004 exceeded the number
       of scheduled flights in May 2000. In 9 of those 12 airports, however, the
       number of available seats scheduled still lagged behind the number of
       available seats offered in May 2000, indicating, at least in part, how



Exhibit A: Stat ement for the Record                                                         5
      network carriers are using a growing number of smaller aircraft to move a
      smaller number of passengers.

  •   Low-Cost Carrier Expansion Adds New Flights to Large and Medium-sized
      Markets
      Low-cost carriers, which once opted to operate at alternative, but more
      affordable secondary airports, are now challenging legacy carriers in their
      hubs in most large and medium-sized markets, and in transcontinental
      markets which they had previously not served. Earlier this month
      Southwest Airlines began operations at Philadelphia International Airport,
      going head-to-head against incumbent carrier U.S. Airways on several of its
      most profitable routes. Frontier Airlines is scheduled to begin serving
      Philadelphia from Los Angeles later this month.

      Low-cost carriers together now control about 21 percent of domestic air
      capacity – up from 15 percent 4 years ago. From a consumer standpoint,
      the impact of a low-cost carrier entering a market is often a sudden and
      significant reduction in average airfares. In fact, most low-cost carrier
      strategies are built on generating new passenger demand rather than shifting
      existing passengers from incumbent carriers. As a result, from an
      operational standpoint, the low-cost carriers new operations, coupled with
      incumbent carriers’ competitive response to new entry can produce
      significant additional demands on an airport’s runways and airspace.

  •   Post 9-11 Security Screening Process Increases Travel Complexity.

      When the Transportation Security Administration (TSA) was created within
      the Department of Transportation after September 11, Secretary Mineta
      established a goal that airline passengers be processed through new
      Federally-staffed airport passenger screening checkpoints in 10 minutes or
      less; a standard that was considered appropriate to meet the dual needs of
      ensuring secure airways while maintaining national mobility.

      TSA is periodically collecting data at a rotating list of selected airports. In
      April, TSA reports that average national wait time in April was 3.8 minutes
      during off-peak hours and 7.9 minutes during peak hours, although TSA
      advises that these numbers may be misleading as they do not reflect
      particular peaks during the week or in different seasons.

      Meanwhile, many airports, airlines, and consumers are becoming very
      vocal about lines at security checkpoints that routinely extend an hour or
      longer. For example, at Atlanta-Hartsfield Airport last week, news media
      reported that security lines stretched 1/2-mile long on one morning. At
      LaGuardia’s “B” terminal, which houses all of the airport’s low-cost

Exhibit A: Stat ement for the Record                                               6
     carriers, security lines routinely stretch 30 to 60 minutes long in the
     evenings. With an anticipated growth in passengers during the busy
     summer season – some predict even longer delays.




          At Phoenix-Sky Harbor International Airport, lines at security checkpoints averaged
          nearly 30 minutes in April 2004.


     Passengers, airlines, and airports need accurate information concerning all
     aspects of the travel experience. It is time for detailed airport-specific data
     to be collected and reported, similar to the process used by the airlines to
     report delay occurrences and causes. If there are problems such as those
     being anecdotally reported, the first step to addressing them is to adequately
     quantify them.

     The national goal is to provide high quality security in such a way that
     recognizes the importance of passenger mobility. In our work related to
     airline customer service commitments, one of the key shortfalls by the
     airlines was in how frequently and accurately they communicated with
     passengers about the occurrence of delays. The airlines made significant
     investments in systems to improve communications and the Government
     should adhere to the same standard.




Exhibit A: Stat ement for the Record                                                            7
Since 2000, FAA Has Made Progress in Managing and Enhancing
Capacity, But Additional Actions Need to Be Taken.

An important lesson from the summer of 2000 is that it is very difficult to make
decisions and take action in the middle of a busy travel season. FAA and the
airlines have taken a number of actions since the summer of 2000 that will help to
enhance the flow of air travel this summer. Nevertheless, several efforts,
including a new precision and approach landing system, that FAA believed held
promise in the aftermath of the summer of 2000 have not materialized.

Actions Taken

   • The Department and FAA have demonstrated a willingness to work with
     airlines at Chicago O’Hare to adjust airline schedules when flights
     exceeded the physical capacity of the airport. This willingness to take a
     hands-on approach to address delays was not present in 2000.

   • FAA and the airlines have worked together to develop plans specifically for
     this summer. These include establishing express lanes in the sky and
     establishing a 90-minute delay trigger. When delays at an airport reach
     90 minutes or more, other airports sending flights into the congested area
     will hold until congestion clears.

   • FAA and the airlines now have daily conference calls about the status of
     the National Airspace System and expected weather patterns to help
     manage traffic, which provides an automatic feedback mechanism.

   • FAA completed its “choke point” initiative to address bottlenecks in
     airspace that caused delays in the heavily traveled airspace triangle between
     Chicago, Washington DC, and Boston.

   • New runways have been built at Phoenix, Detroit, Miami, Denver,
     Houston, and Orlando airports. The first phase of a runway project in
     Cleveland was also completed last year. Without a doubt, congestion
     would be much worse this summer without the new capacity in the system,
     particularly since five of the new runways are at hubs for network carriers
     and Orlando is a destination airport for much of the Eastern U.S.

   • We note that for the longer term, the Department and FAA have established
     a Joint Planning and Development Office to develop a longer-term vision
     for the next generation air transportation system.




Exhibit A: Stat ement for the Record                                            8
Actions Needed

During the summer of 2000, it was clear that a number of factors, including airline
scheduling, impact of weather on various runway configurations, and air traffic
control considerations determined how many aircraft an airport could handle under
good and bad weather conditions. In 2000, FAA did not coordinate these data.

This was highlighted in Congressional hearings, and the Agency developed and
published capacity benchmarks for the 31 busiest airports in 2001. These
benchmarks set forth the number of flights a specific airport could support within
the constraints of the airport’s runways and air traffic control system under
varying weather conditions. As such, they were useful for disclosing capacity
levels at specific airports in relation to proposed airline scheduling as well as for
projecting additional capacity that could be gained through new runways,
technology, and procedures. Because of the reduced traffic that followed the
economic downturn and 9/11, the benchmarks were not as critical to FAA for
decision-making purposes in 2002 and 2003.

As of today, we do not have updated capacity benchmarks but we understand that
they are almost done. FAA has been updating its capacity benchmarks for
months, and has expanded its analysis to include 35 airports, but has not yet
released them. FAA should move to finalize and publish these updated
benchmarks as soon as possible, preferably before the end of May 2004.

A number of efforts were advanced in the 2000-2001 timeframe for enhancing
capacity in the near-term, including airspace redesign, the Local Area
Augmentation System (a new precision landing system), and Controller-Pilot Data
Link Communications (a new way for controllers and pilots to exchange
information).     There was even some discussion about accelerating the
development of the Local Area Augmentation System. Since then, all three of
these efforts have experienced problems.

While FAA completed its choke point initiative, our recent work shows that much
work remains to get airspace redesign efforts on track and determine what can be
accomplished in the near- and long-term. For example, FAA has over 40 ongoing
airspace redesign projects but many of the them are not on schedule due to
environmental issues, changes in the scope of projects, and/or difficulties in
developing new procedures. In addition, the Local Area Augmentation System
and Controller-Pilot Data Link Communications clearly had merit but they faced
fundamental problems with respect to misjudging technological maturity or
unexpected cost growth that needed to be addressed before they could move
forward.


Exhibit A: Stat ement for the Record                                               9
          New runways provide the largest increases in capacity, and seven new runways
          are expected to be completed between now and 2008. There are about 10 other
          new runway projects in various planning stages, including a major effort at
          Chicago O’Hare, but FAA does not yet have firm completion dates for them.
          While the six recently completed runways will enhance capacity and limit delays
          at those airports, only one of the five airports (Atlanta) currently seeing the most
          delays is expected to have a new runway within the next 2 years. It is important
          that FAA continue to monitor the status of new runway projects to ensure they
          come on line.

                  Status of Major New Runway Projects – May 2004

                  Estimated
                  Completion                            Cost       Observations and Challenges to
  Airport           Date             Phase(s)         Estimate           Timely Completion
                  (Calendar                           (Millions)    (as provided by the airport)
                    Year)
Cincinnati            2005           Construction        $250      None cited.
                                                                   The runway was delayed from 2003 to 2005
                                                                   because of the economic situation of the air
                                                                   carriers serving the airport. The current
Minneapolis           2005           Construction        $618
                                                                   challenges are:
                                                                   ü Having NAVAIDS operational.
                                                                   ü Relocating tenants.

                                                                   The runway was delayed from 2005 to 2006
                                                                   due to lawsuits related to fill dirt. The
Atlanta               2006           Construction       $1,250
                                                                   current challenge is:
                                                                   ü Complexity of the project.
                                                                   The runway was delayed from 2005 to 2006
                                                                   because of public opposition and lawsuits.
Boston                2006           Construction        $78       The current challenge is:
                                                                   ü Maintaining current operations during
                                                                       construction.
                                                                   The runway was delayed for 6 months due to
                                                                   airport contract delays and soil settlement
St. Louis             2006           Construction       $1,023     concerns. Current challenges are:
                                                                   ü Weather and potentially unknown site
                                                                       conditions.

                                                                   The runway was delayed from 2007 to 2008
                                                                   due to economic concerns with the major hub
Dulles                2008          Environmental        $247
                                                                   airline. The airport did not cite any current
                                                                   challenges.
                                                                   The runway was delayed from 2006 to 2008
                                  Environmental and                due to environmental concerns. The current
Seattle               2008                              $1,200
                                    Construction                   challenge is:
                                                                   ü Pending citizen lawsuits.



          Exhibit A: Stat ement for the Record                                                      10
Where Do We Go From Here?
Increased flights and the onset of summer weather disturbances are likely to
exacerbate the problems already apparent in the system. Summer schedules filed
by the airlines indicate significant increases in flight operations, including those in
markets already experiencing significant delays. Also, passenger counts are likely
to increase during the airlines’ busiest season, further exacerbating security-related
delays.
   •   FAA Needs to Complete and Publish Revised Capacity Benchmarks.
       FAA needs to complete its updates and finalize its work on airport capacity
       benchmarks and publicly release them. These benchmarks show the
       maximum number of flights that can be handled each hour for both good
       and bad weather at the airports analyzed.
       If the airlines’ scheduled flights at an airport exceed its good weather
       capacity or far exceed its bad weather capacity (particularly if it is an
       airport that can be expected to experience many days of severe weather in
       the summer), then we can expect delays radiating out into the aviation
       system from this airport. But by having updated benchmarks and using
       them to analyze scheduled operations, the Department and FAA will be in a
       position where they can anticipate and attempt to ameliorate delays before
       they materialize this summer.
   •   Accurate and Specific Airport Security Wait-time Data Needs to be
       Collected and Publicly Disclosed. Information on all parts of the travel
       experience is necessary for consumers who make travel decisions based on
       total door-to-door trip times – not just take-off to landing times. Both the
       Department of Transportation and the Department of Homeland Security
       have mandates concerning air transportation. DOT has a mandate to ensure
       safety and mobility, while DHS has a mandate to ensure security. The two
       agencies need to work collaboratively to find a way to meet these missions.
       As a start, a reasonable wait-time standard needs to be developed at each
       airport, for peak and off-peak hours. Data measuring performance against
       this standard should be submitted to the Department of Transportation,
       similar to the monthly delay data the Department required from the air
       carriers following the gridlock experienced in 2000.
       The collection of this data has had some positive impacts on the industry.
       Monitoring and publishing performance statistics has exerted pressure on
       the airlines to publish more realistic schedules and improve on-time
       performance.



Exhibit A: Stat ement for the Record                                                11
      In response to this emerging problem, Secretary Mineta has directed the
      Office of Aviation and International Affairs and the Bureau of
      Transportation Statistics to develop a statistically valid means to measure
      and report on security wait-times at the nation’s most congested airports.
      Such information, in conjunction with currently collected causation data,
      will form a complete picture of delays in the aviation system and pinpoint
      where action is needed.
  •   Short-term Allocation of Capacity.         We are likely to see travel
      disruptions this summer as demand once again exceeds capacity in some
      markets. The Administration has several options for addressing the
      problems. It could take a “hands-off” approach and rely on airlines to take
      actions to match schedules to available capacity. In recent years, some
      major airlines have taken actions to depeak their dominated hubs to
      alleviate self-imposed congestion and the self-imposed penalties of delays
      and cancellations that result.
      At airports where no single carrier dominates, airlines are reluctant to
      voluntarily reduce schedules for fear of ceding market share to competitors.
      In these situations, the Administration could take a more interventionist,
      command and control approach such as brokering or ordering schedule
      adjustments. The Administration has shown that it is willing to do so by its
      actions to deal with the spiraling delays at Chicago O’Hare earlier this year,
      although it is still too early to tell whether the most recent round of
      schedule reductions will have its desired impact. Administrative
      intervention within a competitive marketplace is not an ideal long-term
      solution, but given the severity of delays in Chicago, there were few other
      options available with potential for immediate relief.
      If neither of these options provides relief, and the situation continues to get
      worse, the time may be appropriate to begin to identify and evaluate
      market-based solutions. Even if administrative solutions work this summer
      to reduce queuing and customers’ dissatisfaction with uncertain and
      unreliable service, their continued use would introduce distortions into
      aviation markets over time.
  • Long-Term Solutions Will Require Rethinking of How System is
    Funded. One of the most significant changes between 2000 and 2004 is the
    loss of the premium business passengers. In addition to hurting the
    industry’s revenues, the Aviation Trust Fund took a hard hit when the
    market for thousand dollar unrestricted tickets dried up. The Trust Fund’s
    primary funding source – the 7.5 percent ticket tax – applied to lower
    average fares results in lower tax revenue to the trust fund. In 2001, FAA
    estimated that Trust Fund revenues in 2005 would be about $14.5 billion.
    That estimate has now been reduced to $11.1 billion.


Exhibit A: Stat ement for the Record                                              12
  Figure 6: Aviation Trust Fund: Comparison of Trust Fund Receipts
                                                             $ in billions
     $16
                                                                                                          $15.4
     $14                                                                 $14.5
                                           $13.7
     $12   $12.9
                                                                                                                   $12.1
                                                                                 $11.6
     $10                                             $10.9
                    $10.1                                                                  $11.1                            $11.7
      $8                                                      $10.4
                              $9.3
                             Actual
      $6

      $4

      $2

      $0
                   FY 2003                         FY 2004                       FY 2005                          FY 2006


                               April 2001 Estimate     February 2003 Estimate    February 2004 Estimate




       It is against this backdrop that aviation funding is constrained and any
       material increases are going to require either a change in the tax structure,
       i.e., how revenue is generated for the Trust Fund, or a greater reliance on
       the General Fund.

Mr. Chairman, this concludes my statement. I am happy to answer any questions
that you might have.




Exhibit A: Stat ement for the Record                                                                                                13
EXHIBIT B. SCOPE AND METHODOLOGY
To identify current traffic and delay conditions, we updated the statistics from our
most recent periodic report on the status of the airline industry.1 These charts
included data on arrival delays, regional jet use, growth in low-cost carrier service,
changes in traffic and fleet mix, passenger enplanements, and traffic operations.

Statistics presented were collected from a variety of government and industry
sources, including FAA, BTS, and the Air Transport Association. The data
represented the most current information available at the time this report was
prepared. We did not attempt to validate the external data used to construct these
charts and do not know the full extent of the measures undertaken by each of the
organizations providing data to ensure consistent quality and completeness.

We also requested information relating to security efforts from the Department’s
program offices, and from airline, airport, and trade association personnel. We
spoke with officials at the Air Transport Association, American Association of
Airport Executives, BTS, and FAA to determine what information exists
concerning delays at airport passenger security screening checkpoints. We
contacted individual airports and airlines to determine whether traffic flow or
security checkpoint throughput or other analyses have been conducted.

To determine FAA’s actions in the past 4 years to mitigate flight delays and
congestion, we relied heavily on our previous audit reports evaluating FAA’s
various air traffic control modernization and capacity enhancing efforts. These
include a June 2003 report on FAA’s major acquisitions, and a July 2003 report on
FAA’s Operational Evolution Plan (the overall blueprint for enhancing capacity
over the next 10 years).2 We obtained updated information on the status of new
runways, airspace redesign efforts, and new technologies that offered potential to
enhance the flow of air travel. We also contacted FAA to determine the status of
agency efforts to update and publish capacity benchmarks.

With respect to safety, we updated information on recent trends concerning two
key safety indicators that will need to be monitored as the demand for air travel
returns: (1) operational errors (which allow planes to come too close together in
the air), and (2) runway incursions (which create the potential for collisions on the
ground). We also analyzed the most serious of these incidents for a 7-month
period (October 1, 2003 through April 30, 2004). As noted in the statement, some

1
    OIG Report Number CC-2004-006, “Airline Industry Metrics: Trends on Demand and Capacity, Aviation System
    Performance, Airline Finances, and Service to Small Airports,” January 8, 2004. This was our fifth “Metrics” report.
    The sixth update will be issued in June 2004.
2
    OIG Report Number AV-2003-045, “Status of FAA’s Major Acquisitions,” June 26, 2003 and OIG Report Number
    AV-2003-048, “Status Report on FAA Operational Evolution Plan,” July 23, 2003.

    Exhibit B. Scope and Methodology                                                                                14
data for the most serious incidents are preliminary and some incidents have not yet
received a final severity rating. We relied on FAA’s information and did not
validate the data used to construct the table in our statement.

Our work to gather the information included in the attached statement was
performed in the Washington, DC metropolitan area. However, we did request
information from airports and airlines located outside of the immediate
Washington, DC metropolitan area. The work directly related to this statement
was performed between May 1, 2004 and May 18, 2004, although the issues
addressed have been under review by our office for a longer period of time.

We developed this testimony report in accordance with Government Auditing
Standards prescribed by the Comptroller General of the United States.




Exhibit B. Scope and Methodology                                                15
                                     Attachment

The following tables are textual representations of the graphical charts that exist in
the original document. These tables are included for individuals that use assistive
technologies to read documents obtained from the Office of Inspector General web
site, and were not included in the original report.



Figure 1 - Actual Flight Operations
Percent Change in Air Route Traffic Control Center Operations
from same month of 2000 (FAA data)
                                   Percent
 Month                 Year        Change
 January               2001            4.51%
 February              2001           -3.68%
 March                 2001           -2.00%
 April                 2001           -0.31%
 May                   2001           -1.30%
 June                  2001           -2.73%
 July                  2001            0.73%
 August                2001           -0.30%
 September             2001          -16.38%
 October               2001           -8.35%
 November              2001           -8.01%
 December              2001           -5.18%
 January               2002           -2.63%
 February              2002           -8.02%
 March                 2002           -7.00%
 April                 2002           -2.57%
 May                   2002           -3.65%
 June                  2002           -4.46%
 July                  2002           -1.22%
 August                2002           -4.39%
 September             2002           -5.01%
 October               2002           -3.75%
 November              2002           -6.63%
 December              2002           -1.10%
 January               2003           -0.36%
 February              2003          -10.28%
 March                 2003           -6.81%
 April                 2003           -5.27%
May                     2003           -6.95%
June                    2003           -6.00%
July                    2003           -2.08%
August                  2003           -5.97%
September               2003           -4.63%
October                 2003           -2.84%
November                2003           -4.04%
December                2003            2.82%
January                 2004            1.72%
February                2004           -0.25%
March                   2004            0.51%


Figure 2 - Arrival Delays
(FAA Data - Nine major airlines, 32 major airports)

                                   Number of
 Month                    Year      Delays
 January                   2000       71,485
 February                  2000       69,499
 March                     2000       71,757
 April                     2000       74,655
 May                       2000       77,400
 June                      2000      100,115
 July                      2000       93,399
 August                    2000       96,550
 September                 2000       66,251
 October                   2000       75,543
 November                  2000       81,731
 December                  2000      105,180
 January                   2003       37,552
 February                  2003       45,191
 March                     2003       41,095
 April                     2003       29,885
 May                       2003       37,305
 June                      2003       44,507
 July                      2003       52,063
 August                    2003       54,001
 September                 2003       33,266
October                    2003        34,422
November                   2003        47,814
December                   2003        58,318
January                    2004        59,228
February                   2004        52,127
March                      2004        49,087


Figure 4 - Type of Aircraft
Percent Change in Number of Domestic Scheduled Flights by Type of Aircraft
May 2004 versus May 2005 (FAA Data)

                       Percent
Type of Aircraft       Change
Turboprop                -49%
Large Jets               -19%
Piston                   -14%
Regional Jets            180%


Figure 6 - Aviation Trust Fund: Comparison of Trust Fund Receipts

FY 2003    April 2001 Estimate              $12.9 million
FY 2003    February 2003 Estimate           $10.1 million
FY 2003    February 2004 Estimate            $9.3 million
FY 2004    April 2001 Estimate              $13.7 million
FY 2004    February 2003 Estimate           $10.9 million
FY 2004    February 2004 Estimate           $10.4 million
FY 2005    April 2001 Estimate              $14.5 million
FY 2005    February 2003 Estimate           $11.6 million
FY 2005    February 2004 Estimate           $11.1 million
FY 2006    April 2001 Estimate              $15.4 million
FY 2006    February 2003 Estimate           $12.1 million
FY 2006    February 2004 Estimate           $11.7 million
                 Runway Incursions and Operation al Errors
                           For the 7 Month Period
                   October 1, 2003 throught April 30, 2004
FY 2003           Runway Incursions – Total Accidents           185
FY 2004           Runway Incursions – Total Accidents           182
Percent Change    Runway Incursions – Total Accidents            (2)
FY 2003           Operational Errors – Total Accidents          601
FY 2004           Operational Errors – Total Accidents          589
Percent Change    Operational Errors – Total Accidents           (2)
FY 2003           Runway Incursions – Most Serious Accidents      13
FY 2004           Runway Incursions – Most Serious Accidents      19
Percent Change    Runway Incursions – Most Serious Accidents      46
FY 2003           Operational Errors – Most Serious Accidents     32
FY 2004           Operational Errors – Most Serious Accidents     22
Percent Change    Operational Errors – Most Serious Accidents   (31)
